DOE/IG-0502




               AUDIT               SALE OF LAND
              REPORT               AT OAK RIDGE




                                      May 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                                   DEPARTMENT OF ENERGY
                                     Washington, DC 20585
                                                 May 7, 2001



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General
SUBJECT:                 INFORMATION: Audit Report on the "Sale of Land at Oak             Ridge"


BACKGROUND

Under the Atomic Energy Act of 1954, the U.S. Department of Energy (Department) may sell land
in the performance of identified programmatic functions. The functions specified in the Atomic
Energy Act include encouraging scientific and industrial progress, controlling special nuclear
material, encouraging utilization of atomic energy for peaceful purposes, promoting the common
defense, and the administration of programs that implement these functions.

In February 2001, the Department sold 182 acres of land in Oak Ridge, Tennessee, for $54 per acre
to a private development company. The property provides river access to an adjoining 1,217 acre
parcel that the developer acquired for a new housing development. Available documentation
confirmed that the purchase of the 1,217 acre parcel was contingent upon the developer acquiring
the Department's river access property. The Department sold the land under special authorities
granted in the Atomic Energy Act. By invoking these special authorities, the Department was not
required to follow the standard Federal practices for property sales, such as advertising, seeking
competitive bids, and obtaining independent appraisals to establish the property's fair market value.

The objective of this audit was to determine if the sale of land was an appropriate use of the special
authorities granted under the Atomic Energy Act.

RESULTS OF AUDIT

While we recognize that the Department had the legal authority to conduct the February 2001 sale
of land to a private developer, we do not believe that this action was an appropriate use of this
authority. The Atomic Energy Act gives the Department authority to sell land in the performance
of a programmatic function without regard to standard Federal practices. In our judgement, this
sale did not meet those requirements. The Department invoked the authority of the Atomic Energy
Act because it has broadly interpreted what it defines as a programmatic function under the Act.
Further, the Department sought to facilitate the sale to the "preferred" purchaser. As a result, there
was no assurance that the land was sold at fair market value and in the best interests of the
Government.
                                            2




MANAGEMENT REACTION

Management did not concur with the finding and recommendation. It contended that all the actions
taken were within the Department's authority.


Attachment

cc: Acting Director, Office of Management and Administration
SALE OF LAND AT OAK RIDGE

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ................................................................... 1

                Conclusions and Observations .............................................................. 2


                Use of Atomic Energy Act

                Details of Finding ................................................................................ 3

                Recommendations and Comments ....................................................... 5


                Appendix

                Scope and Methodology ....................................................................... 7
OVERVIEW

INTRODUCTION AND   In February 2001, the U.S. Department of Energy (Department) sold
OBJECTIVE          182 acres of land for $54 per acre to a private development company.
                   The parcel is a narrow band of land with approximately six miles of
                   meandering shoreline along the Clinch River and across from the
                   Department's East Tennessee Technology Park in Roane County,
                   Tennessee and within the 500-year floodplain of the Clinch River.
                   Around 69 acres of the land are identified as wetlands. The Tennessee
                   Valley Authority (TVA) holds flowage and navigation rights for a
                   portion of the land and has responsibility for the area's shoreline
                   management. The land provides river access to an adjoining 1,217-acre
                   parcel that the developer acquired, contingent on the purchase of the
                   Department's land. The developer plans to construct as many as 1,500
                   new homes on the 1,217-acre property.

                   The Department sold the land under special authorities granted in
                   Section 161g of the Atomic Energy Act of 1954 (Act). The purpose of
                   the Act was to provide for programs to encourage scientific and
                   industrial progress, control special nuclear material, encourage
                   utilization of atomic energy for peaceful purposes, promote the
                   common defense, and the administration of these programs. By
                   invoking these special authorities, the Department was not required to
                   follow standard Federal practices for property sales, such as advertising,
                   seeking competitive bids, and obtaining independent appraisals to
                   establish the property's fair market value. Standard Federal practices
                   also typically require that the General Services Administration (GSA)
                   dispose of excess Government-owned property.

                   The Office of Inspector General (OIG) has issued two prior reports
                   regarding land sales at Oak Ridge. In January 1997, the OIG issued
                   Report DOE/IG-0399, Audit of the U.S. Department of Energy's
                   Identification and Disposal of Nonessential Land. The audit
                   determined that the Department retained significant amounts of land,
                   including about 16,000 acres at Oak Ridge, which were not essential to
                   current and foreseeable mission requirements. Rather than dispose of
                   the nonessential land at Oak Ridge, the Department retained ownership
                   until local entities expressed an interest in acquiring specific parcels.
                   The Department sometimes declared the parcels to be excess and sold
                   the parcels to local entities at the appraised value using the authority
                   granted by the Act. The audit concluded that the Department should
                   exercise greater care in disposing of Government-owned land.
                   Specifically, all interested parties should be given the opportunity to
                   acquire excess land holdings.



Page 1                                                         Introduction and Objective
                  In November 1998, the OIG issued Report ER-L-99-01, Audit of Sale of
                  Land to an Oak Ridge Hospital. The audit determined that the
                  Department sold 3.5 acres of land and 2 buildings to a local hospital
                  using the authority of the Energy Act instead of following standard
                  Federal practices. The audit questioned whether the authority granted by
                  the Energy Act should be used to avoid standard Federal practices when
                  disposing of excess land at Oak Ridge, and whether it was in the
                  Government's best interest for the Department to use proceeds from the
                  sale of Federal property to augment appropriations rather than deposit
                  cash in the U.S. Treasury.

                  Currently, the OIG is performing an audit of the Department's "Hanford
                  Reach National Monument". The purpose of this audit is to determine if
                  the Department should retain ownership of the monument, which
                  consists of 195,000 acres.

                  The objective of this audit was to determine if the sale of land was an
                  appropriate use of the special authorities granted under the Energy Act.

CONCLUSIONS AND   While we recognize that the Department had the legal authority to
OBSERVATIONS      conduct the February 2001 land sale to a private developer, we do not
                  believe that this action was an appropriate use of this authority.
                  Although the Act gives the Department authority to sell land in the
                  performance of a programmatic function without regard to standard
                  Federal practices, this sale did not meet those requirements. The
                  Department invoked the authority of the Act because it has broadly
                  interpreted what it defines as a programmatic function under the Act.
                  Furthermore, the Department sought to facilitate the sale to the
                  "preferred" purchaser. As a result, the Department has no assurance that
                  the land was sold at fair market value and in the best interests of the
                  Government.

                  The current audit identified issues that management should consider
                  when preparing its yearend assurance memorandum on internal controls.



                                                                   Signed
                                                       Office of Inspector General




Page 2                                                   Conclusions and Observations
USE OF ATOMIC ENERGY ACT


Inappropriate Use of        In our opinion, the February 2001 sale of land to a private developer
Special Authority           was not an appropriate use of the special authorities granted under the
                            Act. The sale was not made to directly further any of the programmatic
                            functions identified in the Act. Instead, the sale was made to facilitate
                            the sale of adjoining property. In March 1999, the Department received
                            a letter from the owner of 1,217 acres of adjoining land stating that the
                            sale of its property was contingent on the sale of the 182 acres owned
                            by the Department. The landowner requested that the Department
                            convey title to the land. In August 1999, the Department committed to
                            selling the land to the adjoining landowner contingent on the
                            completion of an environmental assessment of the impact of the sale.
                            The environmental assessment was completed in January 2001 and the
                            Department sold the property to the developer on February 6, 2001.

Energy Act Authorizes       Section 161g of the Act gives the Department authority to sell land in
Sales for Programmatic      the performance of a programmatic function identified in the Act
Functions Without           without regard to standard Federal practices. The programmatic
Regard to Standard          functions include encouraging scientific and industrial progress,
Federal Practices           controlling special nuclear material, encouraging utilization of atomic
                            energy for peaceful purposes, promoting the common defense, and the
                            administration of programs that implement these functions.

                            The Federal Property and Administrative Services Act of 1949
                            established standard Federal practices to ensure that Government-
                            owned land is sold in the most economical manner consistent with the
                            best interests of the Government. Standard Federal practices typically
                            require that the GSA dispose of property declared excess to an agency's
                            needs. After being reported to GSA as excess, the property is first
                            made available to other Government agencies. Once declared surplus
                            to the Government's needs, the disposal process typically includes
                            appraising the land to establish a fair market value, publicizing the land
                            to be sold in the Commerce Business Daily, and furnishing all
                            prospective purchasers written invitations to make an offer.

Department Broadly          The Department has broadly interpreted what it defines as a
Interpreted Authority and   programmatic function under the Act. The Department has determined
Invoked Authority to        that land sales made under the authority of the Act do not have to
Achieve Desired Sale        directly further nuclear programs. Instead, the Department concluded
                            that sales could also be made that indirectly benefited these programs,
                            such as sales made for economic development in local communities. In
                            addition, the Department believed that any land originally purchased
                            under the authority of the Act may also be sold under the authority of
                            the Act.


Page 3                                                                            Details of Finding
                               The Department invoked the authority of the Act to facilitate the sale
                               to the preferred purchaser. In a Federal Register statement of
                               findings, the Department stated that five alternatives for maintaining
                               or disposing of the land were considered. These alternatives
                               included: (1) conveyance to the adjoining landowner (the preferred
                               alternative); (2) conveyance to the TVA; (3) conveyance to the City
                               of Oak Ridge or Roane County; (4) Department retention with
                               easements granted to the adjoining landowner; and, (5) no action.
                               However, we found no evidence that the Department gave serious
                               consideration to any of the alternatives other than the preferred
                               alternative. The Department concluded that the peninsula-type
                               configuration of the land would create an economic encumbrance if
                               the land were conveyed to any party other than the adjoining
                               landowner. Therefore, alternatives two and three were dismissed. In
                               addition, Department correspondence stated that alternatives four
                               and five were dismissed because the Department was required to
                               divest ownership once the land was formally declared as excess. We
                               noted that the 182 acre parcel of land was never declared excess.

Department Has No              As a result, the Department has no assurance that the land was sold
Assurance the Land Was         at a fair market value and in the best interests of the Government.
Sold at Fair Market Value      For instance, the Department did not obtain its own independent
and In the Best Interests of   appraisal of the land to determine a fair price. Instead, the
the Government                 Department relied on an appraisal obtained by the buyer.

                               We reviewed the buyer’s appraisal. The buyer’s appraisal arrived at
                               an estimated “market value” of $36,400, or $200 per acre. This
                               value is significantly higher than the price ($54 per acre) for which
                               the Department sold the property. The buyer’s appraisal included a
                               definition of “market value”:

                                      The most probable price which a property should bring
                                      in a competitive and open market under all conditions
                                      requisite to a fair sale, the buyer and seller each acting
                                      prudently and knowledgeably, and assuming the price
                                      is not affected by undue stimulus.

                               We found no satisfactory justification for selling the property at such
                               a steep discount from the estimated market value reached by the
                               buyer’s appraisal. The Department maintains it advised the buyer’s
                               appraiser of the need to give additional consideration to potential
                               flooding in reaching the estimated value.




Page 4                                                                            Details of Finding
                  The appraiser had already reduced the valuation by 95 percent (from
                  $4,000 per acre) to account for the land’s irregular shape, limited
                  access, flood plain location, and restrictions imposed by the Tennessee
                  Valley Authority. If a further reduction in value by the buyer’s
                  appraiser was warranted, it would seem appropriate for the written
                  appraisal to have been revised accordingly.

                  The significant difference with respect to the final price only heightens
                  our concern regarding the manner in which the Department handled this
                  sale of land. Even if the Department’s position is accepted—that it was
                  appropriate to use the provisions of the Atomic Energy Act to dispense
                  with the regular procedures associated with a sale of Government land--
                  the Department does not appear to have exercised prudent business
                  judgment in agreeing to the final sale price.

                  In addition, several local citizens and environmental groups have
                  publicly objected to the sale, stating that they would have paid more for
                  the property if they were given the opportunity to acquire it for other
                  uses. Further, in a letter to the Department, one local group complained
                  that the Department's assessment of potential impacts from the sale of
                  the land were incorrectly based on the assumption that other governing
                  agencies, such as the TVA, would have the authority to prevent damage
                  to the shoreline. The TVA expressed similar concerns, stating that
                  conveyance of the land to TVA would be preferable for the protection
                  of the shoreline.


RECOMMENDATIONS   We recommend that the Manager, Oak Ridge Operations Office, follow
                  standard Federal practices for the sale of land not directly involving
                  programmatic functions instead of invoking the special authorities
                  granted in Section 161g of the Act.


MANAGEMENT        Management did not concur with the finding and recommendation.
REACTION          Management believed that the use of the special authorities was
                  consistent with their interpretation of these authorities and a formal
                  process that includes screening for use by other parties was
                  unnecessary. Also, management disagreed with the statement that the
                  Department could not assure the land was sold at fair market value
                  because the Department did not obtain its own appraisal. Management
                  stated that there was no requirement for the Department to obtain its




Page 5                                              Recommendations and Comments
                   own appraisal for this sale and appraisal techniques would not have
                   considered what other groups would have paid for the land. Finally,
                   management stated that any construction or development on the land
                   would fall under the TVA's jurisdiction and would require additional
                   protective measures such as permits.

AUDITOR COMMENTS   We recognize that the Department possessed authority to sell land
                   under the Atomic Energy Act; but we do not believe that these
                   actions were an appropriate use of this authority. The Department
                   should have publicized the land and sought competitive bids to
                   ensure all interested parties had an opportunity to bid, and to ensure
                   the Government received top dollar for the property, provided the
                   highest bidder agreed to abide by local zoning laws and other
                   restrictions. In addition, we recognize that the deed for the land
                   restricts construction of any buildings or structures on the parcel
                   without the TVA's advance approval. Still there is no guarantee that
                   the restrictions will be fully adhered to or that the shoreline will not
                   be damaged. Standard Federal practices were established to ensure a
                   sense of fairness while protecting the interests of the Government.
                   Therefore, we believe that standard Federal practices should have
                   been followed.




Page 6                                             Recommendations and Comments
Appendix

SCOPE         The audit was performed from April 6, 2001, to April 18, 2001, at the
              Operations Office in Oak Ridge, Tennessee. The scope of the audit
              included the Department's sale of a 182-acre parcel of land in Roane
              County, Tennessee, to a private development company in February
              2001.

METHODOLOGY   To accomplish the audit objective, we:

                     •   Reviewed Federal and Departmental requirements related to
                         the sale of land;

                     •   Discussed the sale with Departmental personnel;

                     •   Reviewed legal opinions expressed by the Department's
                         General Counsel; and,

                     •   Examined supporting documentation.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the significant internal controls related to the sale of land.
              Because our review was limited, it would not necessarily have
              identified all internal control deficiencies that may have existed.
              Additionally, we did not rely on computer-processed data. In addition,
              we reviewed the implementation of the Government Performance and
              Results Act of 1993 as it related to the sale of land. No specific
              performance measures were established for the sale of land because of
              the infrequency in which sales occur.

              We held an exit conference with the Deputy Manager for Business
              Affairs, Oak Ridge Operations Office, on April 25, 2001.




Page 7                                                     Scope and Methodology
                                                                               IG Report No. :DOE/IG-0502

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
